<html>
<title> - MARKUP OF H.R. 863, COMMISSION TO STUDY THE POTENTIAL CREATION OF A NATIONAL WOMEN'S HISTORY MUSEUM ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
         MARKUP OF H.R. 863, COMMISSION TO STUDY THE POTENTIAL 
                        CREATION OF A NATIONAL 
                   WOMEN'S HISTORY MUSEUM ACT OF 2013

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                 HELD IN WASHINGTON, DC, APRIL 2, 2014

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
                          http://www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
87-702                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9dec9d6f9dacccacdd1dcd5c997dad6d497">[email&#160;protected]</a>  

                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 JUAN VARGAS, California
RICHARD NUGENT, Florida
                                 ------                                

                           Professional Staff

                       Sean Moran, Staff Director
                 Kyle Anderson, Minority Staff Director


  MARKUP OF H.R. 863, COMMISSION TO STUDY THE POTENTIAL CREATION OF A 
              NATIONAL WOMEN'S HISTORY MUSEUM ACT OF 2013

                              ----------                              


                        WEDNESDAY, APRIL 2, 2014

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:31 a.m., in room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the committee) presiding.
    Present: Representatives Miller, Harper, Gingrey, Schock, 
Nugent, Brady, Lofgren, and Vargas.
    Staff Present: Sean Moran, Staff Director; Peter 
Schalestock, Deputy General Counsel; Yael Barash, Legislative 
Clerk; Bob Sensenbrenner, Senior Counsel; Mary Sue Englund, 
Director of Administration; Erin Sayago, Communications 
Director; John Clocker, Deputy Staff Director; Kyle Anderson, 
Minority Staff Director; Matt Pinkus, Minority Senior Policy 
Advisor; Matt DeFreitas, Minority Professional Staff; Khalil 
Abboud, Minority Deputy Counsel; Thomas Hicks, Minority Senior 
Counsel; Mike Harrison, Minority Chief Counsel; Greg Abbott, 
Minority Professional Staff; and Eddie Flaherty, Minority Chief 
Clerk.
    The Chairman. I would like to call to order the Committee 
on House Administration for today's committee hearing. A quorum 
is present, so we can proceed. And the meeting record will 
remain open for 5 legislative days so that members might submit 
any other materials that they might wish to be included in the 
record.
    And first of all, we are going to have a markup, a quick 
markup here before we go into our hearing scheduled today on 
the National Zoo. Our markup will consider one item, which is 
H.R. 863, which is a bill to establish a commission to study 
the potential creation of a National Women's History Museum.
    The Committee on Natural Resources actually has primary 
jurisdiction over this bill, over this issue. House 
Administration has jurisdiction over the single issue of the 
bill of having a commission consider whether the museum should 
be part of the Smithsonian Institution. We will be issuing a 
report on that issue to move the bill forward in the process. 
But again on other matters, such as the museum's location, the 
makeup of the commission, et cetera, they will be addressed by 
the Committee on Natural Resources.
    At the end of last year, this committee held a hearing on 
the topic of the bill that is before us today, and we received 
testimony from our colleagues and the bill's sponsor in the 
House, Representative Marsha Blackburn and Representative 
Carolyn Maloney. Their testimony urged Congress to establish a 
National Women's Museum paid for and maintained entirely with 
private funds. This bipartisan measure was cosponsored by more 
than 85 Members. It is an appropriate step to study the 
possibility of a future Women's History Museum.
    The accomplishments of women are woven throughout the 
tapestry of our great Nation's history, within small towns or 
large cities, within each State, and across the entire Nation. 
Women have contributed in every war effort, been inventors, 
been architects, business innovators, and leaders in shaping 
America's politics as well. Creating a commission to study this 
endeavor would be an important step toward memorializing 
America's memory of the deep and enduring contributions women 
have made.
    Since the 105th Congress various bills have been introduced 
to advance the creation of a women's museum. One bill even 
passed the House and two in the Senate. And today I hope our 
committee's action will enable this measure to move forward 
during this Congress.
    Establishing a commission is a step in the right direction 
to fully explore how such a museum would integrate with our 
existing national institutions, especially the Smithsonian, as 
well as regional and local cultural institutions, what it will 
cost, how we can fund it, and where would we put it? These 
issues, and I am sure many more, are some areas that a 
commission will discuss, investigate, and make recommendations 
for consideration.
    And I am sure that we can all agree that the intellectual, 
cultural, economic, and countless other contributions by half 
of our society deserve to have the right custodians for today 
and tomorrow's generation of women to learn about the 
accomplishments of yesterday's generations. And with this goal 
in mind, we are considering this bill to establish a commission 
to study the potential creation of a National Women's History 
Museum.
    Again, this bill is also under the jurisdiction of the 
House Committee on Natural Resources. And it is also important 
to note that there has been talk that this bill hopefully will 
receive floor consideration this year. So I am pleased to have 
the committee's members' support to consider moving this bill 
forward and to provide an opportunity to determine how our 
Nation can best represent the significant milestones and 
advancements of our foremothers.
    I would now recognize my colleague, my ranking member on 
the committee, Mr. Brady, for the purpose of his opening 
statement.
    Mr. Brady. Thank you, Madam Chairman.
    Madam Chairman, I join with you in support of bipartisan 
legislation providing for a commission to study the creation of 
the National Women's History Museum in Washington, D.C. Women 
comprise more than half of the United States population. They 
have achieved historic accomplishments in all fields of 
endeavor and deserve this opportunity for recognition in the 
Nation's Capital.
    I anticipate this action on the legislation would be 
followed later this spring by a hearing on the final report of 
the American Latino Museum Commission, which has been before us 
since 2011, and which you expressed an interest in at the end 
of this year.
    I would urge the members prior to final action on this bill 
by the House to work to expand the size of the Women's History 
Museum Commission to a more workable number beyond the current 
eight and to include Presidential appointees, as was the case 
with the African-American Museum and the American Latino Museum 
Commissions. This would enhance the commission's chances of 
ultimate success.
    I look forward to the opportunity to evaluate the 
commission's work during the 114th Congress, and I urge an aye 
vote for this legislation.
    The Chairman. Thank the gentleman very much.
    Are there other members of the committee that would like to 
have an opening statement? The gentleman from Georgia, Dr. 
Gingrey.
    Mr. Gingrey. Madam Chairman, I want to thank you for 
calling this markup on H.R. 863, the Commission to Study the 
Potential Creation of a National Women's History Museum Act. If 
enacted, this legislation would establish a commission which 
would then be required to submit a report to the President and 
to Congress detailing their recommendations for the 
establishment of a National Women's History Museum located here 
in Washington, D.C.
    The bill will also direct the commission to report on 
whether the Women's History Museum should be part of the 
Smithsonian Institution, which is why this committee has the 
opportunity to weigh in on the legislation before us today.
    While some museums devoted to women's history already 
exist, most cover only specific aspects of women's 
contributions, such as the National Museum of Women in the Arts 
or the Women of the West Museum. Rather than trying to pick and 
choose places to add women's history in existing exhibits, a 
National Women's History Museum will provide a chance to give a 
more comprehensive account of women's numerous contributions to 
our Nation's history.
    Women make up more than half of this country's population, 
yet too often their achievements and their contributions 
throughout history have been overshadowed. It is past time that 
we focus on the important influence women have had in their own 
right, and this bill before us today creates a commission that 
is a critical first step in so doing. Today's markup gives us 
as a committee an important chance to show our commitment to 
ensuring that women's history is honored and given the 
attention that it deserves.
    Madam Chairman, I thank you, and I yield back.
    The Chairman. Thank the gentleman.
    Are there any other members that wish to make an opening 
statement?
    The gentlelady from California.
    Ms. Lofgren. Just briefly, I wanted to compliment the 
supporters actually in the private sector who helped bring us 
to this day. It was just a short period of time ago that you 
and I sat here and we had the authors here, but we also had the 
people who worked so hard out in the community to get support 
and to give us hope that we will be able to actually see this 
as a museum.
    So I think this is a very important day. Obviously, it is 
just a first step, but it is an important first step. And I 
know that they are still committed to continuing their efforts. 
We are going to count on them. I see them here in the audience, 
and I wanted to note that.
    And thank you, Madam Chair. I agree with the ranking 
member. I hope that this can be a model for us and that we will 
be able to take similar swift action on the Latino Museum, 
which has actually been under consideration for a considerable 
period of time. So if we had a hearing on that, maybe we would 
have the same outcome on that.
    And I, with those comments, would yield back on this great 
day.
    The Chairman. Thank you very much.
    As I did mention, I am interested in pursuing a hearing on 
the Latino Museum and would certainly go through these one at a 
time here. But in regards to your comments, Ms. Lofgren, as 
well, I certainly want to add, and I see some of the ladies out 
in the audience today that have been so passionate and so 
dedicated and committed to pushing this forward. So we want to 
thank you for that and I know you are going to all continue 
with that as we take this, as has been mentioned, very 
important first step.
    I now call up and lay before the committee, H.R. 863.
    [The Act, H.R. 863, follows:]

    [GRAPHIC] [TIFF OMITTED] T7702A.001
    
    [GRAPHIC] [TIFF OMITTED] T7702A.002
    
    [GRAPHIC] [TIFF OMITTED] T7702A.003
    
    [GRAPHIC] [TIFF OMITTED] T7702A.004
    
    [GRAPHIC] [TIFF OMITTED] T7702A.005
    
    [GRAPHIC] [TIFF OMITTED] T7702A.006
    
    [GRAPHIC] [TIFF OMITTED] T7702A.007
    
    [GRAPHIC] [TIFF OMITTED] T7702A.008
    
    [GRAPHIC] [TIFF OMITTED] T7702A.009
    
    The Chairman. And without objection, the first reading of 
the bill is dispensed with, and the bill is considered read and 
open for amendment at any point. Is there any debate? Are there 
any members that want to offer an amendment on the bill? If 
not, I would move that the committee favorably report H.R. 863. 
The question is on the motion.
    All those in favor, signify by saying aye.
    Opposed, say nay.
    Motion carried.
    In the opinion of the chair, as I say, the ayes have it. So 
without objection, the motion to reconsider is laid upon the 
table. Does any member wish to file supplemental minority or 
additional views for inclusion in the committee report to the 
House.
    Mr. Brady. Madam Chair?
    The Chairman. Mr. Brady.
    Mr. Brady. I would like to announce that the Democratic 
members will request 2 additional calendar days provided by 
Clause 2, Rule 11 of the Rules of the House in order to file 
these.
    The Chairman. Pursuant to Clause 2 of Rule 11, the member 
is entitled to 2 additional calendar days to file such views in 
writing and signed by that member with the clerk of the 
committee.
    I would now ask unanimous consent that the staff be 
authorized to make technical and conforming changes to the 
measure the committee just considered. Without objection, so 
ordered.
    That concludes today's markup. Congratulations, ladies, and 
we look forward to working with you very much.
    This portion of our meeting, the markup, is adjourned.
    [Whereupon, at 10:41 a.m., the committee was adjourned.]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
